WILLIAMS
MORRI AYMIRE

ATTORNEYS

4330 South Lee Street Telephone 678-541-0790
Building 400, Suite A Facsimile 678-541-0789
Buford, GA 30518 www.wmwlaw.com

January 19, 2021
VIA FEDERAL EXPRESS

Scott S. Harris

Clerk of the Court

Supreme Court of the United States
1 First Street, NE

Washington, DC 20543-0001

Re: Kenneth Knowles, Petitioner v. Officer Jason Michael Hart, Respondent
Petition 20-840
Motion to Extend Time to Respond to Petition for Writ of Certiorari

Dear Mr. Harris:

Pursuant to Supreme Court Rule 30.4, Respondent Jason Hart respectfully
moves for an extension of time for filing his response to Appellant Knowles’
Petition for Writ of Certiorari in the referenced case, until February 4, 2021.

The Petition for Writ of Certiorari was docketed on December 22, 2020. The
current due date for the response is January 21, 2021, and the requested extension
is 14 days.

Counsel for Respondent seeks the extension due primarily to the recent
holidays and a heavy litigation work load. Depositions and an appellate brief will
consume most of the week of January 10. The week of January 18 features a
federal holiday, and that week will be largely consumed by a summary judgment
argument and a second federal appellate brief in a wrongful death. That brief falls
due on January 20, 2021.

Because of these other matters, in the absence of an extension undersigned
counsel is unable by the current deadline competently to devote the time and
resources necessary to preparation of Respondents’ brief in response to the
certiorari petition in this important wrongful death case.
Scott S. Harris
Clerk of the Court
January 19, 2021
Page 2

Counsel is authorized to state that Petitioner, through his counsel, consents to this
extension.

This letter is submitted at the somewhat late date above, in hard copy format,
because the Clerk has not processed an electronic filing request (though application
was made in early January). Also, a police officer at the Court advised that no staff
for the Clerk’s Office will be on duty at the Clerk’s Office for the week of January
18, 2021.

Thank you for your kind consideration.

Best regards.
Very truly yours,
IS, MORRIS & WAYMIRE, LLC
/s/ Terry E. Williams
Counsel for Respondent

ce: Craig Jones (craigthomasjones@outlook.com) — counsel for Petitioner
Robert Benfield (rhb@benfieldlaw.com) — counsel for Petitioner
